Centers for Medicare and Medicaid Services (CMS) | Office of Inspector General
Review of Expenses and Revenues Presented in Congressional Testimony by West Jefferson Medical Center
April 21, 2008 | Audit A-01-07-00521
Executive Summary
In an audit conducted at the request of the House Committee on Energy and Commerce, we found that West Jefferson Medical Center's (the hospital) expenses presented in its congressional testimony were generally accurate and supported by its financial records.  At an August 2007 committee hearing, the hospital had requested additional Federal financial assistance, including additional grant funds from the Department, to cover losses incurred as a result of Hurricane Katrina.
We found that the hospital's revenue as described in the testimony for the first 5 months of 2007 did not include a $1.1 million Medicare Wage Stabilization grant that it received during this period.  The Louisiana Hospital Association removed this amount when compiling the testimony data and referenced the grant amount in an explanatory note.  This was an informational report, and we made no recommendations.
Complete Report
Download the complete report  (PDF)
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
Return to CMS